APPENDIX TABLE OF CONTENTS
Opinion of the Eleventh Circuit
(June 20, 2019)...................

la

Order Adopting Report and Recommendation
(August 8, 2018).........................................

8a

Report and Recommendation on Defendant’s
Motion to Dismiss (June 28, 2018).........

10a

Complaint
(March 19, 2018)...

23a

Complaint
(January 16, 1990)

42a

Relevant Constitutional Provision

49a

App.la
OPINION OF THE ELEVENTH CIRCUIT
(JUNE 20, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
MIMI KORMAN,
Plain tiff-Appellan t,
v.
JULIO IGLESIAS,
Defendan t-Appellee.
No. 18-13772
D.C. Docket No. l:18-cv-21028-KMW
Appeal from the United States District Court
for the Southern District of Florida
Before: MARTIN, NEWSOM, and
BRANCH, Circuit Judges.
PER CURIAM:
This is not the first lawsuit that Mimi Korman
has filed against Julio Iglesias over his 1978 song
“Me Olvide de Vivir.”
In 1990, Korman’s first federal suit sought dam­
ages in tort for Iglesias’s theft of the song. She
alleged that she co-authored with the song with him
but he never paid her share of the royalties from it.

App.2a
In that litigation, Korman gave a deposition detailing
the collaborative process by which she and Iglesias
had co-written the song, as well as a sworn affidavit
to that effect. The district court accepted as true
Korman’s assertion of co-authorship but rejected her
tort claims as time-barred by the statute of limitations.
Korman v. Iglesias, 825 F. Supp. 1010, 1016-17 (S.D.
Fla. 1993), affd, 43 F.3d 678 (llth Cir. 1994) (mem.).
In the present action, a copyright suit,l Korman
has changed her tune. She now alleges that “Korman
alone authored the Work.” Compl. U 11. Following
Iglesias’s motion to dismiss, the district court took
judicial notice of the court orders and Korman’s
deposition and affidavit in the earlier litigation. The
court found that judicial estoppel barred her new
claim because Korman had previously asserted that
she is the co-author, not the sole author, of the song. 2
Although Korman responded that her earlier position
was a mistake based on Iglesias’s fraudulent

1 The Copyright Act’s three-year statute of limitations restarts
each time a work is republished. See Petrella v. MetroGoldwyn-Mayer, Inc., 572 U.S. 663, 671 (2014) (citing 17 U.S.C.
§ 507(b).
2 These facts matter because the Copyright Act considers a
“joint work” an inseparable “unitary whole,” 17 U.S.C. § 101,
and authors of a joint work “are coowners of copyright in the
work,” id. § 201(a). Each joint author therefore “automatically
acquires an undivided ownership in the entire work.” 1 Nimmer
on Copyright § 6.03 (2018). As a result, “an action for
infringement between joint owners will not lie because an
individual cannot infringe his own copyright.” Weissmann v.
Freeman, 868 F.2d 1313, 1318 (2d Cir. 1989).

App.3a

representations and her counsel’s advice, the district
court dismissed the copyright claim with prejudice.3
We review a district court’s decision to apply
judicial estoppel for an abuse of discretion. Slater v.
U.S. Steel Corp., 871 F.3d 1174, 1180 n.4 (llth Gir.
2017) (en banc). Judicial estoppel is an equitable
doctrine intended to protect the integrity of the courts
from “parties who seek to manipulate the judicial
process by changing their legal positions to suit the
exigencies of the moment.” Id. at 1176. The rule of
judicial estoppel is that, “where a party assumes a
certain position in a legal proceeding, and succeeds
in maintaining that position, he may not thereafter,
simply because his interests have changed, assume a
contrary position, especially if it be to the prejudice of
the party who has acquiesced in the position formerly
taken by him.” Davis v. Wakelee, 156 U.S. 680, 689
(1895). Judicial estoppel may be applied when the
plaintiff “took a position under oath in the [prior]
proceeding that was inconsistent with the plaintiffs
pursuit of the [present] lawsuit” and she thus “intended
to make a mockery of the judicial system.” Slater,
871 F.3d at 1180. We typically also consider whether
the inconsistency is clear, whether the party had
success in persuading the earlier court to accept the
position, and whether an unfair advantage or detriment
would accrue in the present litigation if not estopped.
Id. at 1181 (citing New Hampshire v. Maine, 532 U.S.
742, 750-51 (2001)).
3 Korman also alleged a claim under the Florida Deceptive and
Unfair Trade Practices Act, Fla. Stat. § 501.201 et seq., which
the district court dismissed without prejudice. Korman has filed
this appeal rather than amending her complaint, and she raises
no FDUTPA issues on appeal.

App.4a
Korman challenges the application of judicial
estoppel to her copyright claim on three main grounds.
First, she argues that a court may not make a finding
of intent “to make a mockery of the judicial system”
without discovery, citing various nonprecedential
decisions. We disagree. Though there may be instances
in which the plaintiffs intent is not clear from the
pleadings, this is not one of them. The clear assertion
of sole authorship on the face of Korman’s complaint,
in light of her previous allegations, is the epitome of
‘“the old sporting theory of justice’ or the use of the
federal courts as a forum for testing alternate legal
theories seriatim.” Fla. Evergreen Foliage v. E.I.
DuPont de Nemours & Co., 470 F.3d 1036, 1042 (llth
Cir. 2006). Her affirmative change of position plainly
reflects “cold manipulation and not an unthinking or
confused blunder.” Slater, 871 F.3d at 1181 (quoting
Johnson Serv. Co. v. Transamerica Ins. Co., 485 F.2d
164, 175 (5th Cir. 1973)).
Second, Korman argues that considering her 1992
deposition and 1993 affidavit was improper without
converting Iglesias’s motion to dismiss into a motion
for summary judgment and entering those documents
into evidence. See Fed. R. Civ. P. 12(d) (“If, on a motion
under Rule 12(b)(6). . . matters outside the pleadings
are presented to and not excluded by the court, the
motion must be treated as one for summary judgment
under Rule 56”) We disagree. Our Court has
articulated an exception to Rule 12(d)’s conversion
provision when considering materials attached to a
motion to dismiss that are both central to the plaintiffs
claim and undisputed. See Day v. Taylor, 400 F.3d
1272, 1276 (llth Cir. 2005). Korman’s earlier state­
ments on the subject of the authorship of the song

App.5a
are certainly central here, and neither party disputes
the authenticity of her deposition and affidavit. Their
consideration was thus within the discretion of the
district court.
Third, Korman argues that her prior statements
of co-authorship are not materially or legally
inconsistent, because they were the result of Iglesias’s
fraudulent inducements. Again, we disagree. Whatever
promises Iglesias may have made to Korman to induce
her to work on the song, her 1992 deposition con­
sistently portrays a collaborative co-writing process.
That testimony is plainly and pervasively inconsistent
with Korman’s present claim of sole authorship. As
she testified, that process began with Iglesias giving
Korman handwritten notes of his early ideas for the
song; the two then met together at least eight times
to work on the lyrics; and the final lyrics involved
further changes to what Korman had felt was her final
contribution. Korman even spent a significant portion
of the deposition going through the song line by line,
identifying which specific lyrics were hers and which
were Iglesias’s. Similarly, Korman’s 1993 affidavit
avers under oath that “Mr. Iglesias and I worked
together for about two weeks and both contributed to
the adaptation. . . . There is no question that I am a
co-author of this song along with Mr. Iglesias.” Although
Korman now asserts that she claimed that she and
Iglesias were co-authors only because Iglesias said
they were, the substance of her testimony does not
support her new claim of sole authorship. The district
court reasonably rejected Korman’s attempts to
harmonize her previous position on the song with her
present one.

App.6a
In sum, the district court did not abuse its dis­
cretion when it invoked the flexible, equitable
doctrine of judicial estoppel here. “‘Equity eschews
mechanical rules’ and ‘depends on flexibility.’” Slater;
871 F.3d at 1187 (quoting Holmberg v. Armbrecht, 327
U.S. 392, 396 (1946)). We affirm the district court’s
consideration of “all facts and circumstances in
evaluating the plaintiffs intent,” id., as well as its ex­
ercise of its discretion in defense of the integrity of
the judicial process. Korman’s current position is
clearly inconsistent with her earlier one, which was
fully accepted by the 1990s district court. Although
that acceptance did not result in success for Korman,
allowing her to proceed with her new position would
still create the perception that the first court was
misled. Allowing Korman’s new position would also
give her an unfair advantage, granting her a second
chance to litigate a timeworn claim. See generally
New Hampshire, 532 U.S. at 750-51. The district court
was entitled to defend itself against Korman’s attempt
to circumvent the time bar by asserting diametrically
opposed facts. The balance of equities here favors
barring Korman’s present complaint in order to “protect
the judiciary, as an institution, from the perversion
of judicial machinery.” See Edwards v. Aetna Life
Ins. Co., 690 F.2d 595, 599 (6th Cir. 1982).
Finally, we note that Iglesias has moved for the
sanction of attorney’s fees. See Fed. R. App. P. 38 (“If
a court of appeals determines that an appeal is
frivolous, it may.. . award just damages and single
or double costs to the appellee.”). Although we find
reasonable the district court’s conclusion that Korman
intended to make a mockery of the judicial system,

App.7a
we do not find Korman’s appeal of that decision patently
frivolous.
Accordingly, we AFFIRM the dismissal with pre­
judice of Korman’s copyright claim, and we DENY
Iglesias’s Rule 38 motion for attorney’s fees.

App.8a
ORDER ADOPTING REPORT AND
RECOMMENDATION
(AUGUST 8, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIMI KORMAN,
Plaintiff,
v.
JULIO IGLESIAS,
Defendant.
Case No. 18-21028-CIV-WILLIAMS
Before: Kathleen M. WILLIAMS,
United States District Judge.
THIS MATTER is before the Court on Magistrate
Judge Edwin G. Torres’s Report and Recommendation
(DE 36) (the “Report”) regarding Defendant’s motion
to dismiss (DE 16). The Report recommends that
Defendant’s motion be granted in part. Plaintiff filed
objections to the Report, (DE 40), to which Defendant
filed a response (DE 42), to which Plaintiff filed a
reply (DE 45). Defendant also filed limited objections
to the Report. (DE 41). Upon an independent review
of the Report, the Parties’ objections, the record, and
applicable case law, it is ORDERED AND ADJUDGED
that:

App.9a

1.

The Report is AFFIRMED and the analysis
contained in the Report (DE 36) is ADOPTED
and incorporated herein by reference.

2.

Defendant’s motion to dismiss (DE 16) is
GRANTED.

3.

Defendant’s motion for judicial notice (DE
17) is GRANTED.

4.

Plaintiff may file an amended complaint
only as to her FDUTPA claim within 14
days of the date of this Order. All other
claims are DISMISSED WITH PREJUDICE
for the reasons set forth in the Report.

DONE AND ORDERED in chambers in Miami,
Florida, this 8th day of August, 2018.
/s/ Kathleen M. Williams
United States District Judge

App.lOa
REPORT AND RECOMMENDATION ON
DEFENDANT’S MOTION TO DISMISS
(JUNE 28, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIMI KORMAN,
Plaintiff,
v.
JULIO IGLESIAS,
Defendant
Case No. 18-21028-CIV-WILLIAMS/TORRES
Before: Edwin G. TORRES,
United States Magistrate Judge.
This matter is before the Court on Julio Iglesias’s
(“Defendant”) Motion to Dismiss with prejudice
(‘Motion”) [D.E. 16] Mimi Korman’s (“Plaintiff’) Com­
plaint. [D.E. l]. More specifically, Defendant moves
to dismiss pursuant to Federal Rule of Civil Proce­
dure 12(b)(6), arguing that Plaintiffs Complaint fails
to state claims under the Copyright Act and Florida
Deceptive and Unfair Trade Practices Act (“FDUTPA”).
After careful consideration of the Motion, Response,
Reply, all relevant authorities, and for the reasons dis­
cussed below, Defendant’s Motion to Dismiss this action

App.lla
should be GRANTED in part, with leave for Plaintiff
to amend only her FDUTPA claim.
I. Background
In May of 1978, Defendant asked Plaintiff to write
Spanish lyrics for a popular French song Defendant
intended to record. Defendant told Plaintiff that he
would pay her 33% of the song’s royalties for her
work. Shortly thereafter, Plaintiff wrote the Spanish
lyrics of the song “Me Olvide De Vivir” (the “Song”).
Defendant first released the Song in 1978. In the
forty years since, Defendant has reproduced, dis­
tributed, and published the Song at least 100 times
in various formats. But Plaintiff believes that she
alone authored the lyrics of the Song and never
assigned her copyright of the lyrics to Defendant. She
further alleges that Defendant has enjoyed generous
profits from his unauthorized use of the Song and
that, as a result, she has suffered damages.
To that end, on March 19, 2018, Plaintiff initiated
a Complaint against Defendant, seeking damages and
injunctive relief under both the Copyright Act and
FDUTPA. Specifically, Plaintiff alleges that Defendant
infringed on Plaintiffs copyright, most recently in
2017 when Defendant allegedly participated in the
publication and distribution of the Song on Defendant’s
compilation album “The Real... Julio Iglesias.” Plain­
tiff also alleges that Defendant’s unauthorized use of
the Song constitutes “unfair methods of competition
and unfair or deceptive acts and practices,” in violation
of FDUTPA.
Defendant, in response, moved to dismiss Plaintiffs
claim on April 23, 2018. [D.E. 16]. Defendant argues
that the doctrines of res judicata and collateral

App.l2a
estoppel preclude Plaintiff from asserting her copyright
infringement claim because Plaintiff and Defendant
have twice before litigated this dispute—once in Federal
Court in 1993, and again in state court in 2015. Id.
Defendant also contends that Plaintiff has failed to
state a cause of action under FDUTPA and that, to
the extent her FDUTPA claim is legitimate, it is pre­
empted by the Copyright Act. Id. Accordingly, Defend­
ant requests that we dismiss Plaintiffs Complaint
with prejudice. [D.E. 16].
II. Legal Standard
The Federal Rules of Civil Procedure require a
complaint to contain “a short and plain statement of
the claim showing that the pleader is entitled to
relief.” Fed. R. Civ. P. 8(a)(2). “To survive a motion to
dismiss, a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.”’ Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). Although this
pleading standard “does not require ‘detailed factual
allegations,’... it demands more than an unadorned,
the-defendant-unlawfully-harmed-me accusation.” Id.
(quoting Twombly, 550 U.S. at 555). Pleadings must
contain “more than labels and conclusions, and a
formulaic recitation of the elements of a cause of
action will not do.” Twombly, 550 U.S. at 555. Indeed,
“only a complaint that states a plausible claim for
relief survives a motion to dismiss.” Iqbal, 556 U.S.
at 679 (citing Twombly, 550 U.S. at 556). To meet
this “plausibility standard,” a plaintiff must “plead[ ]
factual content that allows the court to draw the
reasonable inference that the defendant is liable for

App.l3a

the misconduct alleged.” Id. at 678 (citing Twombly,
550 U.S. at 556).
When reviewing a motion to dismiss, a court must
construe the complaint in the light most favorable to
the plaintiff and take all factual allegations contained
therein as true. See Brooks v. Blue Cross & Blue Shield
of Fla., Inc., 116 F.3d 1364, 1369 (llth Cir. 1997).
Under normal circumstances, a court’s review of a
motion to dismiss is limited to the four corners of the
complaint. St. George v. Pinellas County, 285 F.3d
1334, 1337 (llth Cir. 2002). Yet, in certain circum­
stances, a court may also consider materials outside
of the complaint. See Day v. Taylor, 400 F.3d 1272,
1276 (llth Cir. 2005). In looking to these external
materials, ordinarily a court must convert the motion
to dismiss into a motion for summary judgment. See
Fed. R. Civ. P. 12(d). However, a court may consider
a document attached to a motion to dismiss without
converting it to one for summary judgment if the
attached document is (l) central to the plaintiffs
claim and (2) undisputed. Horsley v. Feldt, 304 F.3d
1125, 1134 (llth Cir. 2002). In this context,
“undisputed” means that the authenticity of the
document is not challenged. Id.
III. Analysis
A.

Copyright Infringement Claim
1. Judicial Notice

The Federal Rules of Evidence provide that “[a]
court may judicially notice a fact that is not subject
to reasonable dispute [if] it: (l) is generally known
within the trial court’s territorial jurisdiction; or (2)

App.l4a

can be accurately and readily determined from sources
whose accuracy cannot reasonably be questioned.” Fed.
R. Evid. 201(b). Furthermore, “[t]he court may take
judicial notice at any stage of the proceeding.” Fed.
R. Evid. 201(d).
Pursuant to Federal Rule of Evidence 201, Defend­
ant requests that in considering this Motion the Court
take judicial notice of the following four documents:
(l) Plaintiffs 2015 State Court Complaint; (2) Plain­
tiffs Deposition from the 1993 Federal Court case;
(3) Plaintiffs Affidavit from the 1993 Federal Court
case; and (4) court orders from the 1993 Federal Court
case. [D.E. 17].l We will take judicial notice of the
first three documents because each contains informa­
tion regarding the authorship of the Song—a fact that
is undoubtedly central to Plaintiff s copyright infringe­
ment claim—and Plaintiff has not disputed the authen­
ticity of those documents. See Horsley, 304 F.3d at
1134.
Likewise, we will take judicial notice of the court
orders from the 1993 case between Plaintiff and
Defendant. Public records are among the permissible
facts that a district court may consider on a motion to
dismiss. See Universal Express, Inc. v. U.S. S.E.C.,
177 F. App’x 52, 53 (llth Cir. 2006) (quoting Stahl v.
U.S. Dep’t ofAgric., 327 F.3d 697, 700 (8th Cir. 2003)
(“The district court may take judicial notice of public
records and may thus consider them on a motion to
dismiss.”)). As court orders fall within the definition
of what constitutes a public record, we will consider
them in ruling on Defendant’s Motion. See Baloco v.
Drummond Co., 767 F.3d 1229, 1245 (llth Cir. 2014)
1 Defendant attached the first three documents to his Motion.

App.l5a
(taking judicial notice of depositions and declarations
from parties’ prior litigation); see also Horne v.
Potter, 392 F. App’x 800, 802 (llth Cir. 2010) (holding
that district court properly took judicial notice of
documents from parties’ prior litigation); Turner v.
AMICO, No. CV-15-BE-1202-S, 2015 WL 7770232, at *7
(N.D. Ala. Dec. 3, 2015) (taking judicial notice of
statements made by plaintiff under penalty of perjury
in parties’ prior litigation).
2. Judicial Estoppel
The doctrine of judicial estoppel bars Plaintiff
from bringing her copyright infringement claim against
Defendant. The Eleventh Circuit has explained that
“(jjudicial estoppel is an equitable doctrine invoked
at the court’s discretion, designed ‘to protect the
integrity of the judicial process.”’ Transamerica Leasing,
Inc. v. Inst, of London Underwriters, 430 F.3d 1326,
1335 (llth Cir. 2005) (quoting New Hampshire v.
Maine, 532 U.S. 742, 749 (2001)). Courts apply this
doctrine “to prevent a party from asserting a claim in
a legal proceeding that is inconsistent with a claim
taken by that party in a previous proceeding.” Id. And
while “[t]he circumstances under which judicial estop­
pel may appropriately be invoked are probably not
reducible to any general formulation of principle,” the
Supreme Court has outlined three factors for courts to
consider when determining the doctrine’s applicabil­
ity. New Hampshire, 532 U.S. at 750-51.
First, a party’s later position must be “clearly
inconsistent” with its earlier position. Id. at 750
(quoting United States v. Hook, 195 F.3d 299, 306
(7th Cir. 1999)). Second, courts regularly ask whether
the party has been successful in persuading a court

App.l6a
to accept that party’s earlier position, so that judicial
acceptance of the later position would create “the
perception that either the first or the- second court
was misled.” Id. (quoting Edwards v. Aetna Life Ins.
Co., 690 F.2d 595, 599 (6th Cir. 1982)). Third, courts
consider whether the party seeking to assert an
inconsistent position “would derive an unfair advantage
or impose an unfair detriment on the opposing party
if not estopped.” Id. at 751.
In the Eleventh Circuit, courts consider two
additional factors. See Transamerica Leasing, Inc.,
430 F.3d at 1335. “[F]irst, it must be established that
the allegedly inconsistent positions were made under
oath in a prior proceeding; and, second, the inconsist­
encies must have been calculated to make a mockery
of the judicial system.” Id. Notwithstanding these
factors, the Supreme Court has made clear that the
applicability of judicial estoppel does not rest on
“inflexible prerequisites” or an “exhaustive formula.”
New Hampshire, 532 U.S. at 751. Thus, a court may
consider the unique facts and circumstances of each
case when deciding on the applicability of the doctrine.
See id.
In this case, we must accept as true Plaintiffs
claim that she is the sole author of the Song. See
Brooks, 116 F.3d at 1369 (in ruling on motion to dis­
miss, courts must take factual allegations of com­
plaint as true). However, we must also take judicial
notice of Plaintiffs 2015 State Court Complaint,
Plaintiffs Deposition from the 1993 Federal Court
case, Plaintiffs Affidavit from the 1993 Federal
Court case, and court orders from the 1993 Federal
Court case. In considering these documents together,

App.l7a
we find that Plaintiff is judicially estopped from
asserting here that she is the sole author of the Song.
In her 2015 State Court Complaint, Plaintiff
declared eight times that she and Defendant were either
“co-authors” or “co-owners” of the Song. [D.E. 16].
Furthermore, in her 1993 Deposition, Plaintiff admitted
that she was the “secondary author” of the Song, and
she identified Defendant as either the sole author or
co-author of seven lines of the Song. [D.E. 31]. Plaintiff
also stated in her 1993 Affidavit that “[t]here is no
question that I am a co-author of this song along
with [Defendant].” [D.E. 16]. In addition, court orders
from the 1993 litigation confirm Plaintiffs prior
sworn positions. In that case, the court relied on
those positions and held that the parties were “co­
authors of the controverted song” and that as such,
Plaintiff could not bring an infringement claim under
17 U.S.C. § 501. [D.E. 16]; Korman v. Iglesias, 736 F.
Supp. 261, 264 (S.D. Fla. 1990) (holding that co-authors
of a copyrighted work may not bring an infringement
claim against each other).
But here, she attempts to do just that. Three
years and a full 180 degrees later, Plaintiff now con­
tends that she is the sole author of the Song. Plaintiff
justifies the discrepancy by arguing that the parties
are not true “co-authors” within the meaning of the
Copyright Act. [D.E. 23]. In doing so, Plaintiff seeks
to reframe the issue of authorship as a legal ques­
tion, rather than a factual question, in an effort to ex­
cuse her prior positions as merely mistaken legal con­
clusions. But by Plaintiffs own admission, “whether a
contribution is independently copyrightable is a ques­
tion of fact.” See D.E. 23 (emphasis added). Indeed, the
classic case of judicial estoppel arises when a litigant

App.l8a

asserts inconsistent statements of fact or adopts
inconsistent positions on combined questions of fact
and law. Patriot Cinemas, Inc. v. General Cinemas
Corp., 834 F.2d 208, 214 (1st Cir. 1987)2
Having failed on her earlier claim, it appears that
Plaintiff now seeks to “deliberately change [ ] positions”
in an effort to take advantage of “the exigencies of
the moment.” See New Hampshire, 532 U.S. at 743.
Clearly, her prior statements that she and Defendant
were co-authors of the Song directly contradict her
current position that she is the sole author of the
Song. Both conclusions cannot be true. See Patriot
Cinemas, 834 F.2d at 214 (judicial estoppel barred
plaintiff from claiming he was both an employee and
not an employee of defendant). And, her inconsistent
prior positions were made under oath—in both a
deposition and an affidavit—which satisfies the first
factor outlined by the Eleventh Circuit with regard to
judicial estoppel. See Transamerica Leasing, Inc.,
430 F.3d at 1335.
Likewise, it appears that Plaintiffs calculated
change of position was undertaken in an effort to
“make a mockery of the judicial system.” See id. While
discerning Plaintiffs intent might ordinarily prove a
difficult task on a motion to dismiss, the record before
2 The Eleventh Circuit has not distinguished between issues of
fact and law when ruling on the applicability of judicial
estoppel. See United Kingdom v. United States, 238 F.3d 1312,
1324 (llth Cir. 2001) (holding merely that judicial estoppel
applies to calculated assertion of divergent sworn positions).
Thus, regardless of whether we classify the authorship of the
Song as an issue of fact or as an issue of mixed fact and law,
judicial estoppel still applies. See Patriot Cinemas, Inc., 834
F.2d at 214.

App.l9a
us makes a compelling case that Plaintiffs change of
position arose out of (l) a calculated attempt to cir­
cumvent prior court rulings (2) in order to gain an
unfair advantage over Defendant. Twice before, Plain­
tiff has claimed before a court that she and Defendant
are co-authors of the Song. We will not turn a blind
eye to these previous statements, especially when the
most recent claim arose just three years prior to the
commencement of this litigation, and Plaintiff suc­
ceeded in persuading this Court to accept her “co­
author” position in the 1993 action. See Korman, 736
F. Supp. at 264.
If we take Plaintiffs contention that she is the
sole author of the Song at face value, as we must on a
motion to dismiss, then—as explained above—she is
judicially estopped from asserting her claim here; to
allow otherwise would create “the perception that
either the [1993 court] or [this] court was misled.”
See New Hampshire, 532 U.S. at 750. On the other
hand, if we grant Plaintiff leave to amend her
Complaint to state that she and Defendant are co­
authors of the Song, then it becomes impossible to
state a claim under the Copyright Act. See Korman,
736 F. Supp. at 264. (holding that co-authors of a
copyrighted work may not bring an infringement claim
against each other). No matter what factual allegations
Plaintiff attempts to assert, she simply cannot state
a plausible claim for relief under the Copyright Act.
Accordingly, the Court should GRANT with prejudice
Defendant’s Motion to Dismiss Count I.
B.

FDUTPA Claim

Defendant also moves to dismiss Plaintiffs
FDUTPA claim, alleging that Plaintiff “has not asserted

App.20a
any facts which support a claim under FDUTPA[D.E.
16]. Defendant also argues that Plaintiff has merely
repackaged her copyright infringement claim under a
different name and a different statute, and that in
doing so, failed to assert additional facts avoiding
preemption by the Copyright Act. [D.E. 16]; See
Stripteaser, Inc. v. Strike Point Tackle, LLC, No. 1362742-CIV, 2014 WL 866396, at *5 (Mar. 5, 2014) (an
extra element in addition to the acts of reproduction,
performance, distribution, or display is required to
avoid preemption by Copyright Act).
Defendant’s points are well taken. In her
Complaint, Plaintiff merely restates the same factual
allegations contained in her copyright infringement
claim, with the added caveat that “the acts and
practices of Defendant. . . constitute [] unfair methods
of competition and unfair or deceptive acts and practices
under [FDUTPA].” [D.E. l]. But pleadings must contain
“more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not
do.” Twombly, 550 U.S. at 555. In short, Plaintiff has
not alleged any additional facts that allow us “to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Iqbal, 556 U.S. at
678 (citing Twombly, 550 U.S. at 556).
Furthermore, as written, Plaintiffs FDUTPA claim
is preempted by the Copyright Act because Plaintiff
has not alleged an “extra element” in addition to the
acts of reproduction, distribution, or display, as is
required. See Stripteaser, 2014 WL 866396, at *5.
Merely employing the adjectives “unfair,” “competi­
tion,” and “deceptive” does not suffice. See id. To
avoid preemption by the Copyright Act, Plaintiff must
assert additional facts that qualitatively change the

App.21a

nature of the action. See Pegasus Imaging Corp. v.
Northrop Grumman Corp., 2008 WL 5099691, at *4
(M.D. Fla. Nov. 25, 2008). Thus, to state a claim
under FDUTPA, Plaintiff may not merely restate the
factual allegations forming the basis of her copyright
infringement claim.
However, Plaintiff has requested leave to amend
her Complaint to “allege more clearly [Defendant’s]
wrongful conduct.” [D.E. 23]. Plaintiff claims that she
possesses additional facts that, when alleged, will
satisfy the extra element test avoiding preemption.
[D.E. 23]. Given Plaintiffs request and the early
stage of this litigation, we should grant Plaintiff
leave to amend her FDUTPA claim. In doing so,
Plaintiff must state additional facts supporting her
claim, instead of the mere “labels and conclusions”
that she currently sets forth. Furthermore, Plaintiff
must state new facts making her FDUTPA claim
qualitatively different from her copyright infringement
claim. Failure to do so will result in the dismissal of
this action. Accordingly, we should GRANT without
prejudice Defendant’s Motion to Dismiss, with leave
for Plaintiff to amend her FDUTPA claim.
III. Conclusion
For the foregoing reasons, it is hereby RECOM­
MENDED that Defendant’s Motion to Dismiss Plain­
tiffs copyright infringement claim be GRANTED with
prejudice and that Defendant’s Motion to Dismiss
Plaintiffs FDUTPA claim be GRANTED without pre­
judiced Any amended complaint must be filed within
3 Upon amendment, Plaintiff must also show why this Court
should continue exercising jurisdiction over the claims following
dismissal of Count I.

App.22a

fourteen (14) days from the date of the Order on the
Motion.
DONE AND ORDERED in Chambers at Miami,
Florida, this 28th day of June, 2018.

/s/ Edwin G. Torres
United States Magistrate Judge

'i

App.23a
COMPLAINT
(MARCH 19, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
MIMI KORMAN, an individual,
Plaintiff,
v.
JULIO IGLESIAS, an Individual,
Defendant.
Case No. 18.-21028-CV-WILLIAM/TORRES
Plaintiff, MIMI KORMAN (“Mimi Korman”), by
and through undersigned counsel, sues Defendant
JULIO IGLESIAS (sometimes “Iglesias”), and alleges:
Introduction
Behind every great fortune lies a great crime.
—Honore de Balzac
1. Defendant Julio Iglesias (“Iglesias”), a musical
legend, has enjoyed a stellar four (4) decades long
career amassing adoration and hundreds of millions of
dollars. This action seeks to at long last right Julio
Iglesia’s brazen infringement, four (4) decades long,
of the song that Plaintiff Mimi Korman authored and
which catapulted Julio Iglesias into global musical

App.24a

stardom. Accordingly, this action seeks damages for
Iglesias’ copyright infringement occurring within three
(3) years of the filing of this action and injunctive
relief against any present and future infringement.
Nature of the Action,
Subject Matter Jurisdiction and Venue
2. This is a civil action seeking damages and
injunctive relief for copyright infringement under the
copyright laws of the United States (17 U.S.C. § 101
et. seq.).
3. This Court has subject matter jurisdiction
over this action pursuant to 28 U.S.C. § 1331 (federal
question); 28 U.S.C. § 1338(a) (copyright infringement);
28 U.S.C. § 1367 (supplemental jurisdiction).
4. Pursuant to 28 U.S.C. § 1391(b) and (c), venue
is proper in this District because (i) a substantial
part of the events or omissions giving rise to the
claims occurred in this District; and (ii) Defendant
resides (and therefore can be found) in this District.
The Parties and Personal Jurisdiction
5. Plaintiff Mimi Korman is an individual, is sui
juris, and is a resident of Miami-Dade County, Florida.
6. Defendant Julio Iglesias is an individual, is
sui juris, is a resident of Miami-Dade County,
Florida, and is subject to the personal jurisdiction of
this Court.
7. Even if Iglesias were not a Florida resident
(which he is), this Court would have personal jurisdic­
tion over Iglesias pursuant to Section 48.193, Fla.
Stat. (2018) and Rule 4(k)(l), Fed. R. Civ. P., as Iglesias
has committed one or more tortious acts within the

App.25a

State of Florida which has caused injury to Plaintiff
within Florida or, in the alternative, Iglesias has
engaged in substantial and not isolated activity in
the State of Florida. Moreover, Iglesias has purpose­
fully availed himself of the jurisdiction of this Court
by transacting business in this District and the State
of Florida, including by infringing on Plaintiffs copy­
right in Florida.
Allegations Common to All Counts
8. In or about May 1978, Iglesias approached Mimi
Korman, a well known and successful songwriter and
journalist, to write Spanish language lyrics to a French
language song Iglesias intended to record. The song
had been a hit in Europe for the “French Elvis:” Johnny
Hallyday, under the title, “J'ai oublie de vivre,” (“I
Had Forgotten to Live”).
9. Iglesias represented to Mimi Korman that his
Spanish record company, Fabrica de Discos Columbia
C“FDC”), was in the process of procuring the rights to
use the underlying music to accompany the new
lyrics, and that for her assignment of her copyright to
the lyrics she was to author, his record company was
prepared to pay her 3.3% of the song’s royalties.
10. Accordingly, Mimi Korman wrote the
Spanish lyrics of the song titled “Me Olvide De Vivir”
(“I Forgot to Live”). Hereinafter Plaintiff will refer to
the Spanish lyrics as (the “Work”) and the song
derivative of the Work as (the “Song”).
11. While, Iglesias and Mimi Korman met for
Iglesias to provide his comments to Korman’s lyrics,
Korman alone authored the Work, and the Work was
not work for hire. Korman revised the original French

App.26a

title and the ideas and images in the lyrics were dif­
ferent from the French lyrics. This was a new song
that Mimi Korman crafted to reflect Iglesia’s focus on
his professional life at the cost of his personal life.
12. In or about September 1978, Iglesias’ repre­
sentative presented Korman with an unexecuted
draft contract for Korman to assign her copyright to
Iglesias (through his corporate vehicle Star Music).
Korman signed it and delivered it to Iglesias, but
despite Iglesia’s promises, Korman never received a
copy of the document she signed or of a fully executed
contract signed by both Korman and Iglesias.
13. Therefore, the parties did not contract for
any assignment and Korman holds copyright to the
Work.
14. In 1978, the Song (“Me Olvide de Vivir”)
was featured as the lead track on Julio Iglesias’
“Emociones” album which was released on 12-inch
vinyl on FDC’s “Alhambra” label.
15. The album began to sell in great numbers.
16. With a subsequent release in 1980, the Song
became a huge international hit and would reach
multi-platinum sales. Indeed, the Work became the
musical theme to Iglesias’ movie, which movie Iglesias
eventually retitled after the song.
17. Iglesias and his record company, initially
FDC Alhambra, and later CBS which became SONY,
made huge profits from the song. It is regarded as
one of the two (2) top songs of Iglesias’ entire career
as one of the world’s top singing stars.
18. Over the forty (40) years since Korman
authored the Work, Iglesias and his licensees have

App.27a

reproduced, distributed and published the Song and
derivative works, which continue to be distributed
and published in various formats, including a motion
picture, vinyl, CD, digital downloads, streaming, and
as a video soundtrack.
19. Iglesias has licensed the Song and deriva­
tive works to other performers who have sold myriad
copies in their own right, and has generated and con­
tinues to generate profits.
20. Iglesias has released “Me Olvide de Vivir”
as a recording at least one hundred (100) times and
the Work is widely considered to be his signature
song. Iglesias performs the Song at the beginning or
end of most shows.
21. Further derivative works include, for example,
translations of the Work into Portuguese and Italian.
22. On May 1, 1989 the United States Copy­
right Office issued Korman Copyright Registration
No. Pau001223595 for the Work. A copy of a Copyright
Office website screen shot reflecting Korman’s
copyright registration is attached hereto as Exhibit
“A.”

23. In or around 2017, Iglesias infringed on
Korman’s copyright by participating in the publish­
ing and distribution of the Song (derivative of the
Work) as Disc 1, Track 12 of the compilation album
titled “The Real... Julio Iglesias” (the “Compilation”).
A copy of the Compilation front and back jacket cover,
and of the interior Disc 1 jacket cover, is attached
hereto as Exhibit “B.”
24. On information and belief, Iglesias, and as
yet unidentified third parties have released the Song

App.28a

and derivative works in infringement of Korman’s
Copyright. Korman will identify the additional infringe­
ments, and infringers, and amend this Complaint to
state such additional claims.
Fulfillment of Conditions Precedent,
Attorney’s Fees and Punitive Damages
25. All conditions precedent to the maintenance
of this action have been performed, have occurred, or
have been waived or excused.
26. Plaintiff has retained the undersigned
attorneys to bring this action and is obligated to pay
a reasonable attorneys’ fees for their services.
27. Because the Defendants’ actions as described
herein were performed with actual malice, ill will and
gross indifference to or with reckless disregard of
Plaintiffs’ rights, and amount to willful and wanton
acts which were deliberate and without reasonable
cause or basis, Plaintiffs reserve the right to amend
this Complaint to seek punitive damages in accord­
ance with the provisions of Fla. Stat. § 768.72 (2017).
COUNT I:

Copyright Infringement
(Iglesias)
28. Plaintiff, MIMI KORMAN, adopts and real­
leges the allegations set forth in paragraphs 1
through 27 above as if fully and expressly set forth
herein and further alleges as follows.
29. As set forth above, Korman is the author
and holds copyright to the Work (i.e., Spanish lyrics
to the song “Me Olvide De Vivir”).

App.29a

30. The Work is the subject of Certificate of
Copyright Registration No. Pau001223595 issued by the
Registrar of Copyrights on May 1, 1989. See Exhibit
“A.”

31. The Copyright Act grants Korman the ex­
clusive rights to reproduce and distribute the Work
(the Spanish lyrics) and works derivative thereof to
the public.
32. Korman has never published the Work.
33. Without Korman’s permission, Defendant
has reproduced and distributed works derivative of
Korman’s Work (the Spanish lyrics) to the public (the
“Infringing Work”). A copy of the Compilation (i.e.,
the Infringing Work) front and back jacket cover is
attached hereto as Exhibit “B.”
34. The Infringing Work infringes on Korman’s
Work, to wit, the published song incorporates Korman’s
Spanish lyrics.
35. Defendant has profited from the infringe­
ment of the Work.
36. Iglesias has been on notice of Korman’s
claim of rights to the Work but has nonetheless will­
fully published and distributed the Infringing Work
for his financial benefit.
37. Korman has been damaged as a result of
Defendant’s actions.
COUNT II:
Unfair and Deceptive Trade Practice Pursuant to
Florida Statute § 501.201 (2017)
38. Plaintiff, MIMI KORMAN, adopts and real­
leges the allegations set forth in paragraphs 1

App.30a

through 27 above as if fully and expressly set forth
herein and further alleges as follows.
39. This is an action for damages and injunctive
relief under the Florida Deceptive and Unfair Trade
Practices Act, § 501.201, et seq., Fla. Stat. (2017).
40. The acts and practices of Defendant Iglesias
described above constitutes unfair methods of competi­
tion and unfair or deceptive acts and practices under
the Florida Deceptive and Unfair Trade Practices Act,
§ 501.201 et seq. (2017).
41. Plaintiff has suffered damages as a direct
and proximate result of Defendant’s violation of the
Florida Deceptive and Unfair Trade Practices Act,
§ 501.201 et seq.
Prayer for Relief
WHEREFORE, Plaintiff, MIMI
respectfully requests that this Court:
A.

KORMAN,

pursuant to 17 U.S.C. § 502, and Section
501.211(1), Fla. Stat. (2017),
(1) permanently enjoin Defendant Iglesias
and his agents, servants, employees, and
attorneys; and all other persons who
are in active concert or participation
with any of the aforementioned from
publishing or trafficking the Infringing
Work or any other work derivative of
Korman’s Copyright;
(2) order that Iglesias remove all copies of
the Infringing Work from any chain of
distribution including online and in
stores

App.31a

(3) order that all labels, signs, prints,
packages, wrappers, receptacles, photo­
graphs, and advertisements in the posses­
sion of the Defendant or his agents or co­
conspirators, depicting or promoting the
Infringing Work, or a colorable imita­
tion thereof, and all plates, molds,
matrices, negatives, and other means of
making the same, be delivered up to
this Court and destroyed;
(4) order Defendant Iglesias to file with
the Court and serve on the Plaintiff
within thirty days (30) after the service
on the Defendant of the permanent
injunction, a report in writing under
oath setting forth in detail the manner
and form in which Defendant has
complied with the injunction.
(B) award Plaintiff damages, including copyright
infringement damages pursuant to 17
U.S.C. § 504(b);
(C) award Plaintiff Defendants’ copyright infringe­
ment profits pursuant to 17 U.S.C. § 504(b);
(D) award Plaintiff copyright infringement
statutory damages pursuant to 17 U.S.C.
§ 504(c)(1);
maximum
statutory
(E) award
Plaintiff
damages for willful infringement of
$150,000 pursuant to 15 U.S.C. § 504(c)(2);
(F) award Korman her costs and attorneys’ fees
as part of the costs pursuant to 17 U.S.C.
§ 505;

App.32a

(G) costs and attorney’s
§ 501.2105, Fla. Stat.

fees

pursuant

to

(H) award Korman her costs; and
(I)

grant such other and further relief as the
Court deems just and proper.
Demand for a Jury Trial

Plaintiff demands trial by jury on all issues so
triable.

Respectfully submitted
THE BOBADILLA LAW FIRM
Attorneys for Plaintiff
20900 NE 30th Avenue, Suite 800
Aventura, FL 33180
Telephone: 786.446.8643
Facsimile: 786.446.8641
fernandob@bobadillafirm.com
By: /s/ D. Fernando Bobadilla, Esq.
Fla. Bar No. 0136948
Co-counsel:

Marcella S. Roukas, Esq.
Fla. Bar No. 37829
20900 NE 30th Avenue
Suite 815
Aventura, FL 33180

App.33a
COPYRIGHT—EXHIBIT “A”
{Image}
*

'Iji

SLH«'l)'\aset/cli ^Huioty^lulgt.^JSSttn Ovira

Public Catalog
Copyrijlfl Mato* (1978 » pnsmf)
Search Request: Left Anchored Copyright Nurakf12 PaaOOj223595
Search Results; Oiling l of 1 entries

«^B=H
| .

UdMMMnT

MtoMdt&tMr/MMXt
type at Wortt: Music

ftegfcfwtfci Number/Date: PA«09i223595 /1959-05-01
Application tiller J*at outlie & vim.
Title: Me otvidetl? vmr/Mimi K<*rp»«.
Description: t p,

N©l«s Song lyrics,
Cop>’Hghi Claimant: Greet* (MM) Kmnm
Names: Konngft. Greda. 1940-

!4****>i<*«M
Save.Prtot ami Email afefe&gg)
Seleei Download Formii P«RR#cefil * ; PcmtettotPimpjm!
Enter your email address:

.sal

lidu Scanrft Ulster): Bki
CsmOhlBi
111

Co

i MJL&m&J&nm I £o^a«iyk

I Uhtatvji(Cmsrts% Homc.Pagg

I EM^MSaaniXamxi^tt f

App.34a
{Transcription}
Copy Right
United States Copyright Office
Public Catalog
Copyright Catalog (1978 to present)
Search Request:
Left Anchored Copyright Number::::Pau001223595
Search Results: Displaying 1 of 1 entries
Me olvide de vivir /Mimi Korman.
Type of Work: Music
Registration Number/Date: PAu001223595/1989-05-01
Application Title: J'ai oublie de vivre.
Title: Me olvide de vivir/Mimi Korman.
Description: 1 p.
Notes: Song lyrics.
Copyright Claimant: Grecia (Mimi) Korman
Date of Creation: 1978
Names: Korman, Grecia, 1940-Korman, Mimi

App.35a
EXHIBIT “B”—COMPILATION FRONT
AND BACK JACKET COVER, AND OF THE
INTERIOR DISC 1 JACKET COVER
{Image}

Julio

Iglesias
*

!
1'
::

*t
!.
(j
!i
!fi
11
:
•'I
i-=
• i

La Vida Si'jue ifiuat
MnrtuelA
Per Ht Amoi Do
Urns Muj<
A Voces Tu, A V«?ti?s Ye
A fir o/o.mo IV/rof) Ymu
Arms Around Med
Gl Amor
Amanec? E«t Tus Brazos
Peelings iv!
Soy Utt Truh!i»»,
Soy Un Conor
3*»<jir> Tti«» Brytiitiw
(Volvcr A Empcznij
Juidine
f/1« Olvirto Do Vivir
Pobre Diablo
So Ml Lciw;i Non V«H»?
Voy A Pttrdcf La
Cahf>/a Poi Tii A mew

Hdmbre SoMAHn
•J.- .« V
■V Hey

I
V
:i

DC Niria A Mtiftrr
Oof
s«n>» f«1« Stifrir
Amor, Amor, Amor
Con l_a Mism.i Pietlro
:> Msmen!os
ii Nathalie
i I Don't Want To Wwke You
% Bambou Medley:
II Tape Cur DoS BcinibOUS f
Joni/iico
9 To All The Cirls I've
Loved Be*oro
it) Whftii I Will In Lt>»«
- > J-eficidadtes
Kv'h U i'eilsr-i V :»<(/•I've Cot You
Under My Skin
* ? NJ Tp Tpiit)<:? Hi Tfr OIvhIii
lo Motor no Tu VWft
5'i Ae. An

Hi Love hi On Our Side Annin
1 r Qainholeo

' When I Need You
2 99 Miles Prom L.A.
:l Can't Help Polling In Love
4 Milonga (Modlny)
Milonga Sonlimoniitl t tfiyo
5 I Keep Tellling Myself
?> Mammy 0
? Let it Be Mo
•A-flli A-l
3 When You Tell Mo
That You Love $A<t
-Oi'h
Pjidcn
‘1 Vunin Alto
'£> Italia Marnna
’! Lit C»rrtdcf a
1;; El Dl.i Owe hits Ouietvin
1'j Ln CumnA»$H,t
HI My Vftiy
«!'!■ I’.ir
1l,;. Voh-er
Hi Moralito <La Gntvt fri.il
I ‘ Cui'^/tjh Prfft.o
IS Crazy In Lave

;C«l|.l \1|-| \ I*"®!

WON V MDSiC

HI

App.36a

{Tracription}

Julio Iglesias
1
1

La Vida Sigue Igual

2

Manuela

3

Por El Amor De Una Mujer

4

A Veces Tu, A Veces Yo

5

Abrazame (Wrap Your Arms Around Me)

6

El Amor

7

Amaneci En Tus Brazos

8

Feelings (Live)

9

Soy Un Truhan, Soy Un Senor

10

Begin The Beguine (Volver A Empezar)

11

Jurame

12

Me Olvide De Vivir

13

Pobre Diablo

14

Se Mi Lasci Non Vale

15

Voy A Perder La Cabeza Por Tu Amor

16

Hombre Solitario

17

Hey (Spanish Version)

1

De Nina A Mujer

2

Que Nadie Sepa Mi Sufrir

3

Amor, Amor, Amor

2

App.37a

4

Con La Misma Piedra

5

Momentos

6

Nathalie

7

I Don’t Want To Wake You

8

Bambou Medley:
Bambous/Jamaica

9

To All The Girls I’ve Loved Before

10

When I Fall In Love

11

Felicidades with D. Pedro Vargas

12

I’ve Got You Under My Skin

13

Ni Te Tengo Ni Te Olvido

14

Lo Mejor De Tu Vida

15

Ae, Ao

16

Love Is On Our Side Again

17

Bamboleo

1

When I Need You

2

99 Miles From L.A.

3

Can’t Help Falling In Love

4

Milonga (Medley) Milonga Sentimental/Vivo

5

I Keep Telling Myself

6

Mammy Blue

7

Let It Be Me with Art Garfunkel

8

When You Tell Me That You Love Me with
Dolly Parton

II

Tape

Sur

Des

3

App.38a

9

Vuela Alto

10

Baila Morena

11

La Carretera

12

El Dia Que Me Quieras

13

La Cumparsita

14

My Way with Paul Anka

15

Volver

16

Moralito (La Gota Fria)

17 Corazon Partio
18 Crazy In Love

App.39a

CIVIL COVER SHEET
(MARCH 19, 2018)
JS 44 (Rev. 06/17) FLSD Revised 06/01/2017
The JS 44 civil cover sheet and the information con­
tained herein neither replace nor supplement the
filing and service of pleadings or other papers as
required by law, except as provided by local rules of
court. This form, approved by the Judicial Con­
ference of the United States in September 1974, is
required for the use of the Clerk of Court for the
purpose of initiating the civil docket sheet. NOTICE:
Attorneys MUST Indicate All Re-filed Cases Below.
I.
(a) Plaintiffs MIMI KORMAN
Defendants JULIO IGLESIAS
(b) County of Residence of First Listed Plaintiff
•

Miami-Dade

County of Residence of First Listed Defendant
•

Miami-Dade

NOTE: In Land Condemnation Cases, Use the
Location of the Tract of Land Involved.
(c) Attorneys (Firm Name, Address, and Telephone
Number)
D. Fernando Bobadilla, Esq.,
20900 NE 30 Ave., Suite 800
Aventura, FL 33180, (786) 446-8643

App.40a

(d) Check County Where Action Arose:
•
II.

Miami-Dade

Basis of Jurisdiction
•

Federal Question (US. Government Not a Party)

IV. Nature of Suit
•
V.

PROPERTY RIGHTS: 820 Copyrights

Origin
•

Original Proceeding

VI. Related/Re-Filed Case(s)
a)

Re-filed Case: NO

b)

Related Cases: NO

VII. Cause of Action
Cite the U.S. Civil Statute under which you are filing
and Write a Brief Statement of Cause (Do not cite
jurisdictional statutes unless diversity):
•

17 U.S.C. § 101 et. seq. Copyright Infringement

Length of Trial: via 10 days estimated (for both
sides to try entire case)
VIII. Requested in Complaint
Check Yes only if demanded in complaint:
•

Jury Demand: Yes

App.41a

Above information is true & correct to the best of
my knowledge.

/s/
Signature of Attorney of Record
Date: 3/19/2018

App.42a
COMPLAINT
(JANUARY 16, 1990)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
GRECIA (“MIMI”) M. KORMAN,
Plaintiff,
v.
JULIO IGLESIAS,
Defendant.
Case No. 90-0119
The Plaintiff, GRECIA (“MIMI”) M. KORMAN
(“Korman”), sues the Defendant, JULIO IGLESIAS
(“Iglesias”), and alleges as follows:
1. The matter in controversy in this action
exceeds Fifty Thousand ($50,000.) Dollars exclusive
of interest and costs.
2. Plaintiff Korman is sui juris, a citizen of
Florida, and a resident of Dade County.
3. Defendant Iglesias is sui juris and a citizen of
Spain who maintains a part time residence in Dade
County, Florida.
4. The Court has jurisdiction of this action
under 28 U.S.C. § 1332.

App.43a

5. Plaintiff Korman is a composer and lyricist.
Defendant Iglesias is an internationally known per­
forming and recording artist.
6. In May of 1978, Iglesias approached Korman
in Dade County, Florida with some ideas and pre­
liminary lyrics he had for a Spanish adaptation of
the French song “J’ai oublie’ de vivre”, and asked
Korman to write Spanish lyrics for the song.
7. To induce Korman to write Spanish lyrics for
the song, Iglesias represented to Korman that his
publisher was in the process of securing a writer’s
contract from the French publisher of the song, and
that as compensation for her efforts she would
receive a version contract entitling her to 2 1/2% of
the sales of sheet music for the song, 15% of the
mechanical or phonographic royalties from the song
and the song’s performance royalties.
8. In reliance upon Iglesias’ representations,
Korman undertook to and did write Spanish lyrics for
the French song “J’ai oublie’ de vivre”, entitling it “Me
Olvide’ de Vivir”. In or about June of 1978, Korman
delivered the completed lyrics to Ramon Arcusa,
Iglesias’ music director, in Dade County, Florida.
9. In or about October of 1978, Enrique M.
Garea, known to Korman to be the General Director
of Iglesias’ Spanish recording company, Alhambra
Records, a division of Fabrica de Discos Columbia, S.A.,
appeared in Dade County, Florida, and presented
Korman with a contract securing her royalties for
writing the Spanish lyrics to “J’ai oublie’ de vivre”.
10. The contract, which purported to be between
Korman and a Spanish entity called Star Music,
provided that Korman assigned all of her rights to the

App.44a
Spanish lyrics to “J’ai oublie’ de vivre” in return for
3.3% of the song’s sheet music sales, 16.66% of the
mechanical and phonographic royalties from the
song, and 50% of the song’s performance royalties.
11. Korman executed the above-described contract
in Dade County, Florida. At the time she executed it,
it had not been executed by Star Music, and she was
told by Garea that he would return to Spain with the
contract to have it duly executed by Star Music and
“registered” with the appropriate Spanish agencies.
Korman was not provided with a copy of the partially
executed contract.
12. The song “Me Olvide de Vivre” was first
released in 1979, and since that time has been recorded
by Iglesias on at least seven sound recordings that
Plaintiff Korman is aware of, first under the Alham­
bra and then under CBS record labels. These sound
recordings include, inter alia, “Emociones”, “Todos
Los Dias Un Dia”, “Mi Vida En Canciones”, “En Concierto” and “The Royal Philharmonic Plays the Great
Love Songs of Julio Iglesias”. In addition, a motion
picture entitled “Todos Los Dias Un Dia”, which has
also been released on video cassette, includes the
song on its soundtrack, and the song has been
published in lyric sheet form.
13. The song as released includes Plaintiff
Korman’s original title and a substantial portion of
her original lyrics, with the remaining lyrics being
substantially similarly to those she provided to
Iglesias. Plaintiff Korman is accurately listed as one
of the authors of ‘Me Olvide’ de Vivir” in most of its
releases, including albums and the motion picture
“Todos Los Dias Un Dia”.

App.45a

14. The song, as released on phono albums,
audio cassettes, laser discs, and video cassettes, and as
printed in lyric sheet form, has and continues to this
day to be distributed worldwide throughout Europe,
Asia, South, Central and North America and Canada.
These sales have and continue to generate enormous
revenues and royalties. Plaintiff Korman, however,
has never received any royalties or compensation for
the song.
15. From 1980 through 1987, Plaintiff Korman,
believing she was contractually entitled to royalties
from the exploitation of “Me Olvide’ de Vivir”, dili­
gently attempted to determine when she would begin
to receive her royalties and from whom. Among
others, Plaintiff contacted Defendant Iglesias, who
concealed the truth from her and assured her that the
matter of her royalties would be taken care of.
16. In 1988, Plaintiff Korman first learned the
truth. The contract Enrique Garea had provided to
her was a ruse, presented by Garea on behalf of
Iglesias to defraud her and permit Iglesias to obtain
the royalties she was entitled to as the adapter of the
song. The contract was never signed by Star Music or
registered with anyone, and Korman had no contract
for royalties. Rather, on October 5, 1978, Iglesias
himself had entered into a contract with the French
publishers of “J’ai oublie’ de vivre”, Art Music-France
and Tanday Music. In the contract, Iglesias falsely
represented himself to be the sole author of the
Spanish lyrics which Plaintiff Korman had already
delivered to him, and thereby secured for himself the
royalties he falsely promised to Korman, to wit: 2
1/2% of the sheet music sales, 15% of the mechanical

App.46a

or phonographic royalties and the song’s performance
royalties.
17. Pursuant to his contract with Art MusicFrance and Tanday Music, and in his capacity as the
purported sole author of the lyrics of the song, Iglesias
has received and continues to receive substantial
royalties from “Me Olvide’ de Vivir”, all of which
belong to Plaintiff Korman.
Count I
(Fraud)
18. The allegations of paragraphs 1 through 17
above are realleged and incorporated herein by
reference.
19. Defendant Iglesias’ representations to Korman
that he would provide her with the adapter’s royal­
ties if she would write Spanish lyrics for the French
song “J’ai oublie’ de vivre” were, as more fully set
forth above, knowingly and maliciously false.
20. At the time Defendant Iglesias made the
representations, he intended to secure the adapter’s
royalties for himself rather than provide them to
Plaintiff Korman.
21. Defendant Iglesias intended for Plaintiff
Korman to rely upon his representations.
22. Plaintiff wrote the Spanish version of “J’ai
Oublie’ de Vivre”, “Me Olvide’ de Vivir”, and provided
it to Iglesias in justifiable reliance upon his false
representations.
23. As a direct and proximate result of her
reliance upon Iglesias’ false representations, Plaintiff

App.47a
Korman has been damaged by the loss of the royalties
promised to her.
WHEREFORE, GRECIA (“MIMI”) M. KORMAN
demands judgment against JULIO IGLESIAS for
compensatory damages in excess of Fifty Thousand
($50,000.) Dollars, for punitive damages and for costs
and interest. Plaintiff further demands trial by jury
of all issues so triable as a matter of right.
Count II
(Civil Theft)
24. The allegations of paragraphs 1 through 17
above are realleged an incorporated herein by reference.
25. This is an action for civil theft under Sec­
tions 772.11 and 812.014, Florida Statutes.
26. Through the fraudulent scheme described in
paragraphs 6 through 17 above, Defendant Iglesias
knowingly obtained the property of Plaintiff KORMAN,
to wit: her royalties from “Me Olvide de Vivir”, with
the intent of permanently depriving her thereof and
appropriating said monies to himself.
27. As a result of this theft, Plaintiff has been
deprived of her royalties, and has been forced to
retain the services of the undersigned counsel.
WHEREFORE, GRECIA (“MIMI”) M. KORMAN
demands judgment against JULIO IGLESIAS for
compensatory damages in excess of Fifty Thousand
($50,000.) Dollars, threefold damages, interest, costs
and reasonable attorney’s fees. Plaintiff further
demands trial by jury of all issues so triable as a
matter of right.

App.48a

Count III
(Constructive Trust)
28. The allegations of paragraphs 1 through 6,
8, 12 through 14, and 17 above are realleged and
incorporated herein by reference.
29. As co-authors of “Me Olvide’ de Vivir”,
Iglesias and Korman are co-owners of the copyright in
the song.
30. Iglesias has earned profits from the
licensing and use of the copyright to “Me Olvide’ de
Vivir”. None of the profits have been shared with
Plaintiff Korman, and Iglesias has been unjustly
enriched thereby.
31. Iglesias holds said profits in trust for Korman,
and has a duty to account to her for her ratable share.
WHEREFORE, GRECIA (“MIMI”) M. KORMAN
requests the Court to impress a constructive trust
upon the royalties received by JULIO IGLESIAS as
the purported sole author of “Me Olvide’ de Vivir”,
and to order JULIO IGLESIAS to account and pay over
to her ratable share thereof. Plaintiff further demands
trial by jury of all issues triable as a matter of right.
DATED this 16th day of January, 1990.

Stewart Tilghman Fox & Bianchi, P.A.
Attorneys for Plaintiff
44 West Flagler Street, Suite 1900
Miami, Florida 33130-1808
(305) 358-6644

By: /s/ James B. Tilghman. Jr.

App.49a
RELEVANT CONSTITUTIONAL PROVISION
U.S. Const. Amend. V
Grand Jury Indictment for Capital Crimes;
Double Jeopardy; Self-Incrimination; Due Process of
Law; Takings without Just Compensation
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a pre­
sentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in
the Militia, when in actual service in time of War
or public danger; nor shall any person be subject
for the same offence to be twice put in jeopardy of
life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be
deprived of life, liberty, or property, without due
process of law; nor shall private property be taken
for public use, without just compensation.

Supreme Court
PRESS

